                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




    AUDIT OF THE LEARN AND SERVE AMERICA GRANT
                   AWARDED TO THE
    AMERICAN ASSOCIATION OF COMMUNITY COLLEGES

                     OIG REPORT 10-06




                1201 New York Avenue, NW
                        Suite 830
                  Washington, DC 20525
                 Telephone (202) 606-9390
                 Facsimile (202) 606-9397




This report was issued to Corporation management on October 8, 2009. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
April 8, 2010, and complete its corrective actions by October 8, 2010. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                           OFFICE OF INSPECTOR GENERAL
                                        October 8, 2009


TO:           Margaret Rosenberry
              Director, Office of Grants Management

              Elson Nash
              Acting Director, Learn & Serve America


FROM:         Stuart Axenfeld /s/
              Assistant Inspector General for Audit


SUBJECT:      OIG Report 10-06, Audit of the Learn & Serve America Grant Awarded to the
              American Association of Community Colleges

Attached is the final report for the above-noted OIG audit of the Learn & Serve America Grant
Awarded to the American Association of Community Colleges (AACC). This audit was
performed by OIG staff in accordance with generally accepted government auditing standards.

The purpose of this audit was to examine the grant costs incurred by AACC to determine
whether the amounts incurred and claimed are allowable under the grant agreement. In
addition, we determined if AACC had adequate procedures and controls to ensure its
subgrantees were in compliance with Federal laws, regulations and award conditions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by April 8, 2010. Notice of final action is due by October 8, 2010.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ron Huritz,
Audit Manager, at (202) 606-9355.

Attachment

cc:   Frank Trinity, General Counsel
      William Anderson, Acting Chief Financial Officer
      Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field
        Financial Management
      Claire Moreno, Senior Grants Officer
      Doug Lees, Grants Management Specialist
      Tracey Seabolt, Program Coordinator
      Bridgette Roy, Audit Liaison & Administrative Assistant




               1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                   202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
                                                             CONTENTS

Section                                                                                                                             Page

Executive Summary ........................................................................................................           1

Background ......................................................................................................................    1

Objective, Scope, and Methodology ...............................................................................                    2

Summary of Results ........................................................................................................          2

Results of Audit ...............................................................................................................     3

Exit Conference................................................................................................................      9




Appendices

A: American Association of Community Colleges’ Response to Draft Report
B: Corporation for National and Community Service’s Response to Draft Report




                                                                  -i-
                                  EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an audit of the Learn and Serve Higher Education grant
awarded by the Corporation to the American Association of Community Colleges
(AACC). The purpose was to examine the grant costs incurred by AACC to determine
whether the amounts incurred and claimed are allowable under the grant agreement, its
terms and conditions, and applicable Federal law and regulations. In addition, we
determined if AACC had adequate procedures and controls to ensure its subgrantees
are in compliance with Federal laws, applicable regulations and award conditions.

In 2001, the OIG issued Report 02-03, Audit of Corporation for National and Community
Service Grant Number 97LHEDC001 to American Association of Community Colleges,
which identified questioned costs related to the following:

      Inadequately documented costs by subgrantees
      Costs charged to incorrect program year by subgrantees and AACC
      Excess costs claimed by subgrantees
      Indirect costs claimed by subgrantees and AACC
      Excess retirement fringe benefits claimed by AACC
      Inadequately documented direct costs claimed by AACC
      Unreasonable hotel charges claimed by AACC

During this audit, we found that AACC had addressed many of the issues identified in
the 2001 audit. However, we found that: AACC did not claim all costs that were incurred
in the periods covered by Financial Status Reports; incorrectly charged expenses to the
Learn and Serve America (LSA) grant; incorrectly charged expenses to the wrong
account classifications; and that its subgrantees reported expenses to AACC without
sufficient and adequate documentation. We determined that AACC was adequately
implementing the LSA grant as documented in its program progress reports.

BACKGROUND

AACC promotes service learning to the 1,200 associate degree-granting institutions in
the United States. It uses the concept of service learning by combining community
service with classroom instruction, focusing on critical, reflective thinking as well as
personal and civic responsibility. Service learning programs involve students in activities
that address local needs while developing their academic skills and commitment to their
communities.

The goals of AACC's national project, Community Colleges Broadening Horizons
through Service Learning, are to build on established foundations to integrate service
learning into the institutional climate of community colleges, and to increase the number,
quality, and sustainability of service learning programs through an information
clearinghouse, data collection and analysis, model programs, training and technical
assistance, publications, and referrals.




                                           -1-
The Corporation, through its Learn and Serve America Higher Education program, has
been issuing LSA grants to AACC since 1994. The current grant (06LHHDC001) was
awarded on August 15, 2006, for the project period September 1, 2006, through August
31, 2009. The grant award amount was $1,090,076.

AACC provides subgrants to community colleges for the LSA program and categorizes
its subgrantees as either mentee or mentor colleges. AACC defines mentee colleges as
those institutions having little or no established service learning. Mentee schools receive
training and technical assistance to develop a sustainable service learning program in at
least a few academic disciplines. Mentor colleges are defined as community colleges
with substantial service learning in place for at least three years, across several
academic disciplines, usually employing a designated service learning coordinator or
director.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to examine the grant costs incurred by AACC to
determine whether the amounts claimed are allowable under the grant agreement, its
terms and conditions, and applicable Federal law and regulations. In addition, we
determined if AACC had adequate procedures and controls to ensure its subgrantees
are in compliance with Federal laws, applicable regulations and award conditions.

The scope of this audit focused on the funds awarded to AACC under Learn and Serve
America Grant 06LHHDC001. AACC has claimed the following costs:

          Reporting Period          Federal Costs        Match Costs Claimed
                                      Claimed
          09/01/06-12/31/06           $18,359                   $12,261
          01/01/07-6/30/07             $88,409                 $116,588
          07/01/07-12/31/07            $246,513                $274,797
          01/01/08-06/30/08            $108,523                 $76,127
          Totals                       $461,804                $479,773

We performed tests of costs incurred in Program Years 2006-2007 and 2007-2008
(September 1, 2006, through June 30, 2008). In addition, we tested AACC’s compliance
with program requirements. These tests included a review of AACC’s progress reports
and its oversight of subgrantee programmatic activities.

We selected a sample of quarterly/semi-annual reports submitted by each subgrantee to
AACC and requested the supporting documentation. During our audit period, AACC
supported nine mentee colleges (two of which were no longer subgrantees at the
commencement of the audit) and four mentor colleges.

We conducted our fieldwork at AACC’s offices in Washington, DC from January to June
2009.




                                           -2-
SUMMARY OF RESULTS

1.    AACC reported claimed costs on its Financial Status Reports (FSRs) using
      financial data from prior periods.

2.    AACC incorrectly charged expenses to the LSA grant.

3.    AACC incorrectly charged expenses to the wrong accounting classifications.

4.    Subgrantees reported incurred costs to AACC without adequate documentation.


RESULTS OF AUDIT

1. AACC reported claimed costs on its FSRs using financial data from prior
   periods.

AACC’s financial status reports are prepared directly from the amounts recorded in its
general ledger reports. We found that reports may include expenditures from prior
accounting periods. For instance, the most recent FSR submitted for the LSA grant
covered the six-month period ended June 30, 2008. However, at that date, AACC’s
latest financial records were available only through April 30, 2008. The financial records
from April 30, 2008, were used to submit costs claimed on the FSR. On the prior FSR,
AACC had reported financial data that was available as of November 2007. Therefore,
for the period ending June 30, 2008, AACC reported a combination of costs incurred
from the prior period and the current period.

After reviewing the general ledger, we found that AACC had not claimed, as of June 30,
2008, $58,911 (Federal share) and $44,103 (match share) in expenses for its LSA grant.
We determined that AACC was not posting its expenses to the general ledger in a timely
manner, thereby causing the Corporation to rely on financial data that did not provide an
accurate depiction of the total expenses that had been incurred by the grantee during
the reporting period.

The Corporation’s Learn and Serve Provisions state that grantees must complete and
submit the Standard Form 2691, “Financial Status Report”, in eGrants to report the status
of all funds. The Corporation requires the following time periods for coverage:

     Period Covering                                             Report Due
     July 1 - December 31                                         January 31
     January 1 - June 30                                           July 31

The Federal common rule for grants management by institutions for higher learning and
other non-profit organizations, 45 C.F.R. § 2543.21(b)(1), Standards for financial
management, states:

     Recipients' financial management systems shall provide for the following:


1
 As of January 31, 2009, the Corporation requires grantees to submit its expenditure and program income
data using the new Federal Financial Report (FFR), Form Number SF-425.


                                                 -3-
   Accurate, current and complete disclosure of the financial results of each Federally-
   sponsored project or program in accordance with the reporting requirements set forth
   in § 2543.51.


Recommendations

We recommend that the Corporation:

       1a.     Require AACC to record expenses in its general ledger in a timely
               manner, and
        1b.    Verify that AACC adjusts its FFR to reflect the actual amount of expenses
               incurred during the reporting period.

AACC’s Response

AACC concurred with the recommendations. Since the audit, AACC has consolidated
duties with specific time frames for completion of tasks related to the preparation of its
financial statements. In addition, the July 31, 2009 FFR, which was submitted to the
Corporation, was completed using data from AACC’s June 2009 financial statements.

Corporation’s Response

The Corporation concurred with the recommendations. AACC will adjust the cumulative
totals in its next FFR with a comment noting that the change was made as a result of an
audit. By February 2010, the Corporation plans to verify the source data for AACC’s
latest FFR, and will ensure AACC’s policies and procedures are designed and
implemented to ensure timely and accurate reporting.

OIG’s Comment

The planned actions proposed by AACC and the Corporation in its responses meet the
intent of the recommendations and address the finding.


2. AACC incorrectly charged expenses to the LSA grant.

During a review of grant and match expenses incurred as of June 30, 2008, we found
two of 45 transactions tested that should not have been charged to the grant.


      Expense Type                   Date of Transaction     Amount Questioned
      Monitoring                             3/31/07                $251
      Participants’ Training Costs           3/31/08                $697
       Total                                                        $948


AACC found the error associated with the posting of the expense for participant training
in November 2008. Although this expense was corrected with a journal entry, it was
incorrectly recorded on the FSR for June 30, 2008. AACC reported expenses claimed



                                          -4-
as of April 30, 2008, on the FSR and, since this expense was incurred on March 31,
2008, it was included in the amount claimed on the FSR.


OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A,
General Principles, Paragraph A.4, Allocable Costs, states the following:

       a. A cost is allocable to a particular cost objective, such as a grant, contract,
       project, service, or other activity, in accordance with the relative benefits
       received. A cost is allocable to a Federal award if it is treated consistently with
       other costs incurred for the same purpose in like circumstances and if it:

               (1) Is incurred specifically for the award.

               (2) Benefits both the award and other work and can be distributed in
               reasonable proportion to the benefits received, or

               (3) Is necessary to the overall operation of the organization, although a
               direct relationship to any particular cost objective cannot be shown.

In discussions with AACC personnel, we determined that these costs were incorrectly
charged by its accounting staff. The error caused AACC to draw down $948 in
expenses that were not allocable to the LSA grant.

Recommendation

2.     We recommend that the Corporation recover the questioned costs of $948, and
       ensure AACC strengthens its controls for charging costs to the LSA grant.

AACC’s Response

AACC stated that this finding related to recommendation 1, the lack of timely preparation
of financial statements, and that by recording its expenditures and preparing its financial
reports in a timely manner, the recommendation was addressed.

Corporation’s Response

The Corporation concurred with the recommendation. It agrees that the costs are
disallowed and will require AACC to adjust its current FFR to reflect the accurate total,
noting the adjustment in the comment sections of the FFR. By January 2010, the
Corporation plans to verify AACC’s revised accounting policies and procedures to
strengthen the accuracy of costs charged to the grant.

OIG’s Comment

The planned actions proposed by the Corporation in its responses meet the intent of the
recommendations and address the finding.




                                            -5-
3. AACC incorrectly charged expenses to the wrong accounting classification for
   the LSA grant.

AACC incorrectly charged two transactions as direct expenses that were later
reclassified on its general ledger as match expenses. These charges were not found
and corrected by AACC until November 2008, four to five months after it recorded the
expenses in its general ledger.

The expenses were associated with the following:

            Expense Type               Original Date of            Amount
                                        Transaction
     Conference Registration Fees          6/20/08                   $400
     Hotel-Travel Participants             7/22/08                  $1,003

        The common rule for grants management, 45 C.F.R. § 2543.21(b)(2),
        Standards for financial management, states:

        Recipients' financial management systems shall provide for records that
        identify adequately the source and application of funds for federally-
        sponsored activities.

These incorrect postings to the LSA grant were due to a classification error by AACC’s
accounting staff. This could lead to inadequate reporting of the classification of
expenses by AACC. In addition, the expenses could have been drawn down in error by
AACC, thus causing AACC to incur unallowable costs.

Recommendation

3.      We recommend that the Corporation direct AACC to strengthen its controls for
        charging expenses to the correct cost classifications for the LSA grant.

AACC’s Response

AACC has enhanced its processes to provide ample control over the classification of its
expenditures. This includes additional reviews of transactions for appropriateness by
the Chief Financial Officer and other AACC officials.

Corporation’s Response

The Corporation concurred with the recommendation.            By February 2010, the
Corporation will review AACC’s revised accounting practices and procedures to ensure
its corrective action adequately addresses the audit finding.

OIG’s Comment

The planned actions proposed by the Corporation in its responses meet the intent of the
recommendations and address the finding.




                                          -6-
4.   Subgrantees claimed expenses to AACC that were not supported by
     sufficient and adequate documentation.


During a review of supporting documentation for subgrantee expenses, we found one
mentee college that did not report the correct amount on its original submission to
AACC. The subgrantee had over-claimed the Federal share by $196 and over-claimed
match expenses by $2,475. By over-claiming its match, the subgrantee could cause
AACC to claim in excess of its match on its FSR. We also found that the same mentee
college relied on verbal confirmation from a research staff member for work performed
on the grant that was charged as match. Because the subgrantee had claimed excess
match for the grant year, we did not question the match costs. However, we are
questioning the $196 in grant expenses that AACC recorded in its general ledger and
included in its FSR.

We found that another former mentee college did not maintain sufficient and adequate
documentation to support salaries and fringe expenses charged to the grant as match
expenses. The former mentee did not have a defined method for allocating salaries and
fringe benefits to the grant for its match expenses during the quarterly period selected
for review. It relied on a series of e-mails and staff notes from meetings to allocate the
expenses. We found that the college reported on its FSR match that was in excess of
the requirement set forth by AACC for the grant year. Therefore, we will not question the
match expenses. However, AACC incorrectly recorded these expenses in its general
ledger and included the costs in its FSR.

We further found that two of the four mentor colleges did not maintain adequate support
for their match expenses. One mentor college claimed $364 in airline tickets that were
not supported by any documentation for the expenses. The mentor college relied on
verbal confirmation from a staff member that a trip had been taken. This amount did not
affect the college in meeting its match requirement to AACC; however, it led to an over-
statement of match by AACC since the total match claimed by the college was included
in AACC’s match as reported on its FSR.

Another mentor college claimed budgeted amounts as match expenses for staff salary
and benefits and materials for DVD editing and production. We question the difference
between the costs that were actually incurred for the expenses and the budgeted costs
that were claimed by the subgrantee, which is $3,554. Grantees are required to claim
actual expenses incurred, not budgeted amounts. This reduction will cause the mentor
college to not meet its match requirement as required by AACC. In addition, it would
also cause the over-claiming of match by AACC on its FSR.

       The common rule on grants management, According to Sec. 45 CFR
       2543.51 Monitoring and reporting program performance.(a) states that
       “[r]ecipients are responsible for managing and monitoring each project,
       program, subaward, function or activity supported by the award.”

In addition, Learn and Serve Provisions state that grantees must maintain adequate
supporting documents for its expenditures (Federal and non-Federal) and in-kind
contributions made under this grant. Costs must be shown in books or records [e.g., a
disbursement ledger or journal], and must be supported by a source document, such as
a receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.


                                          -7-
Recommendations

We recommend that the Corporation:

4a.    Require ACCC to review the match expenses claimed by mentee and mentor
       colleges and make adjustments to its FSR for those match costs that are
       disallowed.

4b.    Resolve questioned Federal costs of $196 claimed by AACC.

4c.    Require AACC to provide training to subgrantees, both financial and
       programmatic personnel, on Corporation regulations for maintaining appropriate
       and sufficient documentation for expenses charged to the LSA grant.

AACC’s Response

AACC has added an additional level of review of subgrantee costs, by requiring
subgrantees to provide complete electronic documentation of expenses with each
quarterly and semi-annual report. Also, AACC will recover the incorrectly claimed $196
in grant expenses and adjust its FFR. AACC stated that it provides training to its
subgrantees’ programmatic and financial personnel at annual planning and evaluation
conferences and during staff site visits. AACC provides copies of the Learn and Serve
grant provisions with its subgrantee’s award letters, which are sent to their program and
financial personnel.

Corporation’s Response

The Corporation concurred with the recommendations. The Corporation will verify that
the policies and procedures developed by AACC are designed to adequately address
the findings and are implemented. The Corporation will also obtain verification that the
$196 adjustment has been resolved by an offset. The Corporation will review the
training AACC provides for maintaining appropriate and sufficient documentation of
expenses charged to the grant, and will ensure training is provided to both program and
financial staff. The Corporation will ensure all of the corrective actions are completed by
February 2010.

OIG’s Comment

The planned actions proposed by the Corporation in its responses meet the intent of the
recommendations and address the finding.




                                           -8-
EXIT CONFERENCE

We conducted an exit conference with AACC and Corporation representatives on July
15, 2009. During the exit conference, AACC management stated that it was in the
process of addressing the OIG’s findings (see AACC comments above). AACC’s and
the Corporation’s responses to the draft report are included in this final report as
Appendices A and B, respectively.

This report is intended solely for the use of the management of the Corporation, OIG,
AACC and U.S. Congress and is not intended to be and should not used by anyone
other than these specified parties. However, the report is a matter of public record and
its distribution is not limited.




                                         -9-
                              APPENDIX A
________________________________________________________________

   American Association of Community Colleges’ Response to Draft Report
                    September 11, 2009


                    Mr. Stuart Axenfeld
                    Assistant Inspector General for Audit
                    Corporation for National and Community Service
                    Office of Inspector General
                    1201 New York Avenue, NW, Suite 830
www:aacc.nche.edu   Washington, DC 20525
[T] 202-728-0200
[F] 202~833-2467    RE: Comments to Audit Report - American Association of Community Colleges

                    Dear Mr. Axenfeld:

                    We are in receipt of your draft audit report related to CNCS grant 06LHHDCOOI awarded
                    to the American Association of Community Colleges (Association). We appreciate the
                    opportunity to respond to [mdings presented in the report. Our responses areas follows.

                    Recommendations la and lb. The Association should record expenses in its general
                    ledger in a timely manner, and where applicable adjust amounts reported on the FFR to
                    reflect actual amounts.

                    Association Response:
                    The Association agrees with the recommendations. Since the audit was performed, the
                    Association has made a number of changes to the preparation of its financial statements.
                    Duties have been consolidated with specific time frames for completion of tasks. The
                    changes have resulted in niore timely completion ofthe generalledger accounts and
                    balances. Our latestFFR, due d,Uring July2009, was completed with financial data from
                    the Association's June 2009 financial statements.

                    The preparation of timely financial statements should eliminate the need to prepare
                    amended FFRs.

                    Recommendation 2. The Association should strengthen its controls for charging costs to
                    the LSA grant.

                     Association Response:
                    .This finding relates to recommendation 1, the lack of timely preparation of financial
                     statements. As the report states, the AssQciation discovered the niisclassifications and
                     completed the appropriate corrections to the subsequent FFR. Due to the lack oftimely
                     financial records, the time lag for the correction appeared inordinately lengthy. As stated
                     in the response to recommendation 1, the Association now records its expenditures and
                     prepares its financial reports more timely.

                    Recommendation 3. The Association should strengthen its controls over expense
                    classifications.

                    Association Response:
                    Paymeritsfor grant expenditures are initiated by the project director. The expense report is
                    then reviewed and approved by the appropriate vice president for that activity. The
                    expense report is then forwarded to the grants specialist forreview. After the payment is
prepared, the chief financial officer reviews the transaction for appropriateness. The
project director reviews the detailed general ledger after all monthly transactions are
posted to the account.

The Association believes these enhanced processes should provide ample control over the
classification of expenditures to the grant.

Recommendations 4a, 4b, and 4c. The Association should review and make adjustments
for sub grantee match expenses, resolve questioned costs, and provide appropriate training
to subgrantees.

Association Response:
The project director reviews grant and match expenses by sub grantees, both in person
during site visits and via quarterly and semi-annual reports. Sub grantees are responsible
for maintaining and submitting accurate documentation that supports their claimed
expenses. As an additional level of review, the Association will request complete
electronic documentation of expenses with each quarterly and semi-annual report.

The Association will recover the incorrectly claimed $196 in grant expenses and adjust its
FFR for subgrantees' incorrectly claimed grant and match expenses.

The Association provides training to its subgrantees' programmatic personnel at annual
planning and evaluation conferences, and to both programmatic and financial personnel
during staff site visits. AACC includes copies of the Learn and Serve America grant
provisions with its subgrantees' award letters, which are sent to both programmatic and
financial personnel.

If you have any questions about these responses, please contact me at 2021728-0200, ext.
261, or dbrown@aacc.nche.edu.

Sincerely,



Donald O. Brown
Vice President and Chief Financial Officer


cc:     Lynn Barnett, AACC
        George Boggs, AACC
        Bill Gruber, AACC
        Claire Moreno, CNCS
        Gail Robinson, AACC
        Tracey Seabolt, CNCS
        Fran Smith, AACC
                               APPENDIX B
________________________________________________________________

 Corporation for National and Community Service’s Response to Draft Report
                                  NATIONAL &
                                   COMMUNITY
                                  SERVICEtttt
To:

From:

Date:

Subject:        Response to OIG Draft Report: Audit of the Learn and Serve America Grant Awarded to
                the American Association of Community Colleges


Thank you for the opportunity to review the Office of the Inspector General draft audit of the Learn and
Serve America Grant awarded to the American Association of Community Colleges (AACC). The
Corporation reviewed the draft audit report and grantee response and held discussions with the grantee.
We are addressing all findings and recommendations at this time.

The Corporation concurs with audit findings 1 through 4 and will work with AACC to implement the
associated recommendations to correct and improve timeliness, accuracy and supporting documentation.
However, we disagree with recommendations I band 2a to adjust prior period FFRs to ensure prior period
accuracy or to recover questioned costs. The FFR reports cumulative totals. Therefore, the Corporation
instructed AACC to adjust its most recent FFR and include a comment referencing the audit finding.
Nevertheless, the Corporation is requiring AACC to implement corrective action to shorten the lag time
between receipt of financial data and reviews for accuracy and recordation to the general ledger. We have
also advised AACC on the importance of compliance requirements for accurate, current and complete
disclosure of the financial results of each federally sponsored project.

Finding 1. AACC reported claimed costs on its FSRlFFRs using data from prior periods.

The auditors recommend the Corporation:

1a. Require AACC to record expenses in its general ledger in a timely manner; and,
I b. Verify that AACC adjusts its FFR to reflect the actual amount of expenses incurred
during the reporting period.

        Corporation Response: The Corporation agrees with Recommendation I a. The Corporation
        agrees AACC's FFR should reflect current and accurate expenses incurred during the reporting
        period. However, to resolve this recommendation, as discussed above, the recommended audit
        adjustment to the FFR will be reflected in the cumulative total on AACC's most recent financial
        report with a comment to note the change has been made as a result of audit. AACC has stated it
        has made several changes to improve timeliness and accuracy of financial reporting. The
        Corporation will ensure that the grantee changes are documented in policies and procedures
        which are formally implemented as part of its financial management system. AACC has stated its
        latest FFR, due July 2009, is based on financial data from AACC's June 2009 financial
        statements. The Corporation will verify the source data for the latest FFR and will ensure
        AACC's policies and procedures are designed and implemented to ensure timely, accurate and
        current reporting in February 2010.
Finding 2. AACC incorrectly charged expenses to the LSA grant.

The auditors recommend the Corporation:

2a. Recover the questioned costs; and,
2b. Ensure AACC strengthens its controls for charging costs to the LSA grant.

           Corporation Response: The Corporation agrees the questioned costs should be disallowed
           and will require AACC to adjust its current FFR to reflect an accurate total and note the
           adjustment in the comments section of the FFR. In regards to Recommendation 2b, the
           grantee has revised its accounting policies and procedures to strengthen accuracy of coding
           and has advised staff of the audit finding and recommendations. The Corporation will
           review the revised policies and procedures and ensure corrective action is implemented by
           January 2010. The corrective action discussed under Finding I will assist in resolving this
           fmding and recommendation as well.

Finding 3. AACC incorrectly charged expenses to the wrong accounting classification for the LSA
            grant.

The auditors recommend the Corporation ensure that AASC strengthen its controls for charging expenses
to the correct cost classifications for the LSA grant.

           Corporation Response: The auditor found AASC charged two transactions to federal share
           which it reclassified on its general ledger as grantee share five months later. The corrective
           action discussed under Findings I and 2 above will assist in resolution of this
           recommendation. In addition, the grantee has implemented additional review of expense
           reports by the vice president for the activity and by the Chief Financial Officer. The
           Corporation will review revised accounting practices and procedures and ensure corrective
           action adequately addresses the audit finding by February 2010.

Finding 4. Subgrantees claimed expenses to AACC that were not supported by sufficient and
           adequate documentation.

The auditors recommend the Corporation:

4a. Require AACC to review the match expenses claimed by mentee and mentor colleges and makes
adjustments to its FSRlFFR for those match costs that are disallowed;
4b. Resolve questioned Federal costs of$196 claimed by AACC; and,
4c. Require AACC to provide training to subgrantees, both financial and programmatic personnel, on
Corporation regulations for maintaining appropriate and sufficient documentation for expenses charged to
the LSA grant.

           Corporation Response: In regards to Recommendation 4a, AACC has implemented
           additional review and monitoring procedures and developed a checklist to ensure this finding
           and recommendation are included in monitoring by the project director. In addition, ACCC
           implemented a policy to require complete electronic documentation of expenses from
           subgrantees with each quarterly and semi-armual report. The Corporation will verify that the
           policies and procedures are designed to adequately address the findings and are implemented.
           In regards to Recommendation 4b, the Corporation will obtain verification that the $196
           adjustment has been resolved by an offset. In regards to Recommendation 4c, The
           Corporation will review the training AACC provides on requirements for maintaining
      appropriate and sufficient documentation of expenses charged to the grant and ensure the
      training is provided to both program and financial staff and appropriately includes refreshers
      to its staff. The Corporation will ensure corrective action on Finding 4 is completed by
      February 2010.

Cc:   William Anderson, Acting Chief Financial Officer for Finance
      Frank Trinity, General Counsel
      Elson Nash, Acting Director of Learn and Serve
      Bridgette Roy, Audit Resolution Coordinator
